n

jL

No.--

m THE

—iHift

Supreme Court of the United States

PHILIP EMIABATA
Petitioner,
v.

Supreme Court, U.S.
FILED

NOV 1 3 2019
OFFICE OF THE CLEfiK

BB&T (BRANCH BANKING AND TRUST CO.,) JACQUE DOLOTINA,
Asst. Manager at BB&T Co.

Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FOURTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

PHILIP EMIABAT:
Pro se Petitioner of Record.
508 Evening Grosbeak Dr.
Pflugerville TX 78660.
512-791-2395.Email Address: philipemiabata@yahoo .com.

QUESTION PRESENTED
1.
Whether the district court is required under Rule 12(d)
of the Federal Rule of Civil Procedure to either exclude
matters outside the pleadings or to give notice that the
motion would be converted to a motion for summary
judgment under Rule 56; whether the failure to give notice
violated Emiabata,s due process rights. The Four Circuit in
here Decision Conflicts with this Court's Precedents.
2.
Whether denying a pro se litigant leave to ament the
complaint is a violation of Rule 12(d)/Rule 56(d), and whether
when denying a pro se litigant leave to amend the complaint
as in here, a district court must provide a reason for that
denial (as held by the Third, Seventh, Ninth, Eleventh, and
D.C. Circuits),or whether a district court need not provide a
justifying reason when denying a pro se litigant leave to
amend the complaint if that reason is apparent from an
analysis of the record(as held by the First, Fourth, Fifth, and
Tenth Circuits). The question presented is:
May a federal court ever grant a motion for relief from
judgment under Federal Rule of Civil Procedure in violation of
Rule 12(d) or Rule 56(d) in a case involving legal error?

II

TABLE OF CONTENTS
QUESTION PRESENTED
TABLE OF CONTENTS

ii
•■

TABLE OF AUTHORITIES

•

ll-IV

TABLE OF CASES

ii-iii

STATUTES, RULE AND CONSTITUTIONAL PROVISION

iv

PETTION FOR A WRIT OF CERTIORARI

1

PARTIES AND RULE 29.6 STATEMENT

2

OPINIONS AND ORDER BELOW

2-3

JURISDICTION

3

STATEMENT OF THE CASE

3
7

REASONS FOR GRANTING THE WRIT

I. This court should grant the writ and clarify that Rule 12(b)(6) does not permit
dismissal of claim by considering matters outside the pleading to resolve disputed
issues of material facts and failure to comply with Rule 12(d) violates a plaintiffs
rights to procedure due process

8

II. The FOUR CIRCUIT Decision Conflicts with this Court's Precedents Appendix.„3

19

CONCLUSION
APPENDIX
A.

Fourth Circuit Affirmed

1

B.

District Court Decision

2

C.

District Court Memorandum Opinion

3.

I If
table of authorities

Cite

table of cases

Bell Atl. Corp. v. Twombly.

Page

550 U. S. 544, 570 (2007)....................
.7

Ashcroft v. Iqbal.

556 U.S. 662,129 S. Ct. 1937 (2009)....
8

Conley v. Gibson,
355 U.S. 41, 78 S. Ct. 99 (1957)...........
Property Management & Investments,

8
Inc. v. Lewis,

752 F. 2d 599, 604 (11 th Cir. 1985)......
9

Carter v. Stanton,

405 U. S. 669, 671, 92 S. Ct. 1232 (1972)

9

Samkowski v. Carter,
416 U. S. 918, 94 S. Ct. 191 (1987)
Celotex Corp. v. Catrett,
477 U.S. 317, 326; 106 S. Ct. 2548 (1986)
Finn v. Gunter,

9

10

722 F. 2d 711(11 th Cir. (1984)
Nelson v. Adams USA, Inc.,
529 U. S. 460,465; 120 S. Ct. 1579 (2000)
Lomax v. Armontrout,

10

11

'

4

III
923 F. 2d 574, 575 (8 th Cir.)...........

13

Burrell v. Newsome,
883 F. 2d 416, 417 (5 th Cir.)............

14

Lopez v. General Motors Corp
697 F. 2d 1328,1332 (9 th Cir, 1983)

14

iv

table of authorities cont
STATUTES, rules and constitutional provisions
Cite
Page
Constitution of the United States
Amendment XIV, Section 1.

ates; nor
shall any state deprive any person of life, liberty
or property, without
due process of law; nor deny to
any person within its jurisdiction the
equal protection of the laws.
Federal Rules of Civil Procedure
Rule 12(b)(6)....

.....•••3,7,8...

(1) lack of subject-matter jurisdiction;
; (2) lack of personal jurisdiction;
(3)improper venue; (^insufficient
process; (5)insufficient service of pro
(6) failure to state a claim
upon which relief can be granted;(9) failure
to join a party under Rule 19.

objection i-S waived by joining it with one or more other defenses or
objections in a
responsive pleading or in a motion.
MV.

TABLE OF AUTHORITIES CONT
STATUTES, RULES AND CONSTITUTIONAL
Cite
Federal Rules of Civil Proced

page
ure

Rule
12(d)...................................
•®•**•••l(

- ~7A9,10,11,12

(d) Result of Presenting M
atters outside the Pleadings. If,
on a motion
under Rule 12(b)(6) or 12(c),
not
,
matterS °UtSide the Plead|ngs are
presented to and
not excluded by the court, the motion
must be
treated as one for summary judgment
under Rule 56. All parties must
be given a reasonable opportunit, .
y o present all the material that is
pertinent to the motion.

Federal Rules of Civil Procedure
Rule
opposing party's writtencwsem o
amend its pleadine only with the
freely give leave when justice so require
'eaVe' ^ “Urt Should

PROTECTION OF THE LAW:
28 U.S.C. Section 1331 and Petitioner fill,
Pursuant to Federal Rule of Appellant Procedued this Appeal
re Rule 26
computing of time. As Appellant or Petitioner i
is a paper filer.
QUESTION

presented

of .ho w'Xt Tmi pI"

12,d|

be"™verted',eadin8S “ “ ““ ”tke <>'»the motoZuT
56- whether the f T01'00 f°r summarV judgment under Rule
process rights
' ^ ^ ^ "°tiCe Vi°lated Emiabata's due

2-

Whether denying a pro se litigant leave to ament the

the Third S

mUh Pr°V,de 3 reaS°n f°rthat denial <as held by

» ether, da*, court
„0, „rovide ,
when denying a pro se litigant leave to amend the complaint if
F0~:om-- — £»and Tenth Circuits).

!

Rule] and whether the meth m"

of ,lmitati°ns)[Mailbox

Cornplalnt (Overnightmail, was Discriminated ^

** "

against, in here
whether the District/Appellate C
ourt has so far departed from
the accepted and usual
course of judicial proceedings
PARTIES AND rule 29.6 STATEMENT
The caption of this
case contains the
names of the parties
who participated in the proceed
*ngs below and no corporate
disclosure statement i
is necessary on Emiabata's behalf.

OPINIONS AND ORDERS BELOW

^£%7ouZd

OPtatao and Order

on

rr “~2 rrrs “**-« *
dismissing plaintiffs complaint th^

• * ^2(b)(6) in

also farther he,d that ^1^^.“"°" r“P0,,dems
barred.,[notwithstanding that Emiabata's
via Overnight mail on June 6, 2017 Eviden' Mail its Complaint
ce had it so.]
(Document 63). (App..., The Fourth Ci
ircuit Court of Appeal
3

Z

agreed with the di'Strict court(APP-)- The Court of Appeal
concluded ther

«zzzzszz? Em,abaa's
h

that Emiabata's Measly

,“a

aPP“'s a'sohere Md

for immediate a w" " T Pa“'°P*C «"«uih to be
ready
concluded ,h„ the^rE^f4?** '“'’h''
could not be cured by amendment (Apn lTteV ‘T'™' that
appeals issued its unpublished
(Document 64)°^'Ssued,udgment on December 13

, 2018

JURISDICTION
This Court has jurisdiction under 28U S C
review the Circuit Court's decision

Section 1254(1) to
on Writ of Certiorari.

STATEMENT OF THE CASE
This case arose from
branch in
order (Doc 43?,,

T “

43

in ,h' **«

court's

funds from Plaintiff's and
is wife joint
account because it had
been flagged for fraud. (Doc
Plaintiff Mr. Emiabata to exDlainth^ SylV'a Cal,ed
might
ank for
reference]
“cr'*«*«- «•
Plaintiff's say he would "come ?„ ?„ T"8 that She heard
-(id. At 7.) As a result BB«T w/pnrc bank t0 Sh°0t the bank "
banned plaintiff for life, at the r
P‘a'ntlff a ,etter that
is still Banned., and Plaintiff's wasTubjertedT'^0"' Petit'°ner
investigation, fid At 70 , ■ .
bJ cted t0 a criminal
the said Police Plaintiff's Af ^ 1 001 ^10 tHe g°°d work of
would have bL fo DZ
here in South,
these respondents.

gh 0r bV the lawful arti°n of

On June 6,2017,
Plaintiff's Emiabata Filed
a complaint
against BB&T and Dofotina vi
via Overnight Mail,
see plaintiff
exhibit of mailing
receipt file with Diistrict Court also in with
on June 6, 2017 supra.

ed its complaint via

June 9 T2oei7°UrthClerk ^ docketed p,aintiff C
omplaint on
and n'
6 Plaintiff's f''ed com
plaint against BB&T
end Dolotma alleging false light, libel
and slander, (id.) Plaintiff
Pro se Original Complaint.
Pro se Plaintiff to amend th« 6
SUbsequent,V °nly allowed

Z “S 2“18'

t

I

W Dolotlna'

m°ti°n to dismiss
ror '^sufficient service and I
ack of personal jurisdiction [in here
notwithstanding that Dolotina
asst. manager] in here BB&T S was acting on behalf of BB&T as
the district court granted BB&Tervice Was Sufficient. Here again
s motion to dismiss all claims
except slander for failure to
state upon which relief can be
granted. (Doc. 43.)

'or Lava ,o filo
oc. 43.) This motion
was denied for been Time- Barred.
The amended complaint that was d
resD
tte complaint was £££" n“mer°“
Exhibits. L”“ >°
for leave to Amended

and

court issuing a Rule
f^id) in here no order giving
notice to pro se Plaintiff's that the
motion to dismiss
The pro
and Plaintiff also
Wed an affidavit and numerous
exhibits. Which showed several
striking, (1) Defamati
ion per se; (2) Slander per se- f3) iffo
Banned;

“ ?*«

5s-

mg; (6)
iction of Emotion
istress,(8) Tortuous Interfer
ence with a Contract in both

65

individual Def
These and
fact with

. d~=~===r-

issues of

The trial court did not issue
..
.
™le 12(d) notice and although the
district court
dismissed the complaint under Fed. R. Civ.
to state a claim upon which relief could be p- 12(b)(6) for fail ure
granted. (App...).
ttae'V 8PP',,'e<,

, '

*»*»' «*!>

> “mplain, »as time barred t

o the
,he F°mh “»«■ (APP-..I Plain,IfPs
labata s argued, ,n part, that the district court erred in
dismissing the complaint under lPlhirm k
evidence outside the JrZnTnflJ
* C°"sidered
resolved disputed issues nf f

6 Comp aint and'in doing so,

I" part, th^rdiZC:;P;° "
for time-ba„ed as plaintiff's mailed its compTZ, 11“'
mail on ton. 6,20.7 because tbe district court., d ”
‘
extend
the Houston, mailbox Rule to
plaintiff's Complaint. The Court of
Appeals failed to
oral
argument,
,

tbeTln’ “

^2^

The court

weteinsu^p^rdr^8 counts

claims
re was no plausible factual

7 4?

on

modified or completely changed any ideas Mr
have provided., Plaintiffs complaint was tim Emiabata may
e-barred. Finally,
the court held that the district court did
not abuse its discretion
by concluding that th
ere were defects in Emiabata's complaint
that could not be cured by amendment
■ In spite of a clear
record and argument that the district court considered
reams
of evidence outside the pleadi
ings and resolved disputed iissues
of fact, the Court of Appeals
summarily affirmed the district
court's errors. (App...)
REASONS FOR GRANTING THE WRIT
C°Urt ShOU,d grant the Writ and c,arify that Rule
12(b)(6)dose not permit dismissal of a claim by considering
material factstmdT M,ead'ngS t0 r*SO,ve disPuted issues of
—«*

R"te
‘
rocess.
In May 2007, the Court altered the way federal courts
approach motion, to dismia, under Fefaa|"
Twombly. The court considered in detail what a comolaint’
must contain to sundve a motion to dismiss for faZe " site a
claim pursuant to Fed. R. Civ. P. 12(b)(6). in the process
Twombly co„„roed the standard s„ m„re ^ £
■
8

in Conley v. Gibson that, "a complaint should not be dismissed
for failure to state a claim unless it appears beyond doubt that
the plaintiff can prove no set of facts in support of his claim
which would entitle him to relief. Twombiy adopted a more
movant-friendly standard, requiring a complaint to allege facts
that, if proven, would support the relief requested and to show
that the alleged facts were "enough to raise a right to relief
above the speculative level, on the assumption that all the
allegations in the complaint are true.
Though Twombiy marked a clear departure from prior
liberal federal pleading standards, conflict remained as to the
legal standard governing Rule 12 (b)(6). It was uncertain
whether the Twombiy standard only applied to antitrust cases
or to all motion to dismiss for failure to state a claim and
whether Twombiy set forth a new pleading standard. That
uncertainty created by Twombiy was put to rest by the May
2009 decision in Ashcroft v. Iqbal. This decision provides a
great deal of guidance in resolving these issues raised by
Twombiy. Iqbal held that Twombiy was not limited to antitrust
disputes. Such a narrow reading, the Court reasoned, would go
against the Federal Rules of Civil Procedure. Iqbal made plain
that the Twombiy analysis applies "in all civil actions and
proceedings in the United States district courts. In doing so,
Iqbal makes it clear that Twombiy applies to all cases governed
by the Federal Rules of Civil Procedure. Under Twombiy and
Iqbal, a claim as in here is plausible on its face if the complaint
3 ^

contains sufficient facts for a court to draw an inference that
the defendant is liable for the alleged misconduct.
Although Twombly and Iqbal modified the standard to be
applied in determining whether a complaint is sufficient to
overcome a motion to dismiss under Rule 12(b)(6), as in here,
Rule 12(d) was not modified and remains in effect. In here too,.
Under Rule 12(d), "If, on motion under 12(b)(6) or 12(c),
matters outside the pleadings are presented to and not
excluded by the court, the motion must be treated as one for
summary judgment under Rule 56. All parties must be given a
reasonable opportunity to present all the material that is
pertinent to motion." In this case, there was a clear and classic
procedural failure to adhere to the dictates of Rule 12(d).
The district court clearly had discretion to consider matters
outside Emiabata's complaint.[l] However, there are
limitations on the exercise of that discretion. If the court
exercises that discretion and in fact considers outside matters
i.e., if the judge does not exclude them as in here, Rule 12(d)
requires the judge to comply with the requirements of Rule
56[2],

[1] Property Management & investments, inc. v. Lewis, 752 F. 2d 599, 604 (11th
Cir. 1985)
[2]. Carter v. Stanton, 405 U.S. 669, 671, 92 S. Ct. 1232 (1972), vacated on other
grounds, sub nom. Samkowski v. Cater, 416 U.S.918, 94 S. Ct 191 (1974)

Rule 12(d) required that Emiabata's be given a reasonable
opportunity to present material that is relevant to a converted
motion to dismiss. Moreover, because Rule 12(d) triggers the
procedural opportunities under Rule 56, the required notice
would have given Emiabata the right to file a Rule 56(f) motion
for additional time to pursue limited discovery[3]
In this case, the district court, as noted above, considered
an excessive amount of material outside the pleadings and
failed to comply with Rule 12(d) after the complaint was
amended and a new motion to dismiss was filed. The district
court was required, as a matter of procedure, to either give
notice that it was excluding all of that material or that it was
converting the Rule 12 (b)(6)motion to one for summary
judgment. Also Rule 56 (d) required the district court gives
Emiabata's a reasonable opportunity to present material that is
relevant ...e.g. amend his complaint, pursue limited discovery.
It failed to do so, and the Court of Appeals for the Fourth
Circuit continued with that failure when it entered the cursory
opinion affirming the district court's dismissal under Rule
12(b)(6). Notice to the parties that the motion to dismiss was
being converted into a summary judgment motion never
happened.! notwithstanding that Emiabata's asked the district
court to do so]. As the court in Finn v. Gunter,[4],

[3]. Celotex Corp. v. Catrett, 477 U.S. 317, 326; 106 S. Ct. 2548 (1986);ld., 477 U.S. 326fn.6
[4] Finn v. Gunter, 722 F.2d 711 (11 th Cir. 1984)
%

Opinion: "What is important is that [the non-moving party] be
given an opportunity to present every factual and legal
argument available. Proper procedures must be followed. We
will not speculate on what action the parties will take..."[5] It is
effectively hornbook law at all levels of courts, that the Rule
12(b)(6)motion in this case should have been converted to a
Rule 56 motion and Emiabata's was entitle to notice of the
conversion. Emiabata's need not belabor the point except to
note that this Court should not speculate on what action
Emiabata's may have taken had the district court complied with
Rule 12(d). The fact remains that the district court did not
comply and therefore misapplied the law. The Federal Rule of
Civil Procedure are designed to further the due process of law
that the Constitution Guarantees.[6] The district court's failure
to follow the mandates of Rule 12(d)violated Emiabata's rights
to procedural due process.

[5] Id., at 713.
[6]. Nelson v. Adams USA, Inc., 529 U.S. 460,465; 120 S. Ct.
1579 (2000)

RELEVANT FEDERAL RULES OF CIVIL PROCEDURE
This case concerns the explanation and amendment, a district
court must followed/given, when denying pro se litigants leave
to amend their complaint. Federal Rule of Civil Procedure

4(

15(a)(2) addresses amendments not made as a matter of
course, and provides that:
In ail other cases, a party may amend its pleading only
with the opposing party's written consent or the court's leave.
The court should freely give leave when justice so require as in
here.
Fed. R. Civ. P. 15(a)(2). The facts remain that the district
court did not comply and therefore misapplied the law.

THE FOURTH CIRCUIT AFFIRMS THE DISTRICT COURT'S
DENIAL OF PETITIONER'S COMPLAINT FOR TIME BARRED.
Petitioner's timely appealed the district court order,
dismissal of Petitioner's complaint for time-barred., in here
Petitioner's arguing primarily that the district court's failure to
provide or extended Houston, Mailbox Rule to Emiabata's
Complaint In here the district court therefore misapplied the
law., And Facts Remains that District Court Discriminate
against the methods pro se litigant, Emiabata use in filing is
complaint. Overnight mail (Federal Express with it mail receipt
number EL 537042237 US) see Appellant Attached APPX001, Is
the Federal Express mail Receipt used by Plaintiff-Petitioner's
in mailing is complaint, hereby in-corporate with reference. As
seen in this Federal Express Receipt, which is some of the
Gravamen of this case, was filed in both Courts, in here this
FEDERAL EXPRESS RECEIPT SHOWED AS FOLLOWING:

A'l-

(A). Sender Philip Emiabata, 508 Evening Grosbeak Dr.
Pflugerville TX 78660.
(B). Article Addressed to the clerk of court U. S. District Court
42 W. Market street Greensboro, NC. 27401-2544.
(C).
(D).
(E).

Date Accepted 06/06/17
Time 4:21 pm
Postage $23.75.

In here the district court and the Fourth Circuit errored in
their decisions that Emiabata's Complaint was time-barred and
when the district court refused to grant Plaintiff-Petitioner's
motion for leave to amend on the grounds that PlaintiffPetitioner's Complaint would been futile as time-barred. See
district court Memorandum Opinion and Order Document 63
Filed 12/13/18 at page(14) first para. "As a result, Emiabata's
slander claim is facially time-barred".
For the above foregoing plaintiff-petitioner's complaint
was not facially time-barred if the district court apply the
mailbox Rule [Houston] to pro se litigant pursuant to Statute of
limitations within the state one-year statute of limitation. Here
the district court abuse of discretion. See Lomax v.
Armontrout, 923 F.2d 574, 575 (8 th Cir.)(Using the Houston
rationale, the certificate of service on a pro se habeas
petitioner's [as in here pro se out of state litigant]notice of
appeal was used as the filing date to make the notice timely,

A'h

Burrell v. Newsome, 883 F. 2d 416,417 (5 th Cir.)(Using the
Houston rationale, was used as the filing date.
Finding amendment less than six weeks after complaint to
be timely on like in here Petitioner's complaint which the clerk
of the district court docket just about 3 days. [JUNE 9,2017]
When determining whether to allow amendment to add a
nondiverse party, courts consider whether the amendment was
attempted in a timely fashion,. See, e.g., Lopez v. General
Motors Corp., 697 F. 2d 1328,1332 (9 th Cir. 1983). In this
Plaintiff-Petitioner's present case, Emiabata filed is complaint
via Over-night mail on June 6, 2017 which the district court
clerk filed on June 9, 2017 [3 days]. This is not an unreasonable
amount of time. In support Plaintiff-Petitioner's argument that
is Complaint is not time-barred, see Appellant-Petitioner's
Reply Brief at page (10 to 13) at page 10 "The Court dismiss
with prejudice appellant complaint which is a harsh, for the
court and the defendants counsel to claim that Appellant
Complaint is time-barred here the Court erred without Apply
Texas Rules of Civil Procedure., Rule 5; Rule 21; Mailbox law
and due to the Harshness of judgment., In re Elmore, 227 F. 3d
at 1011.,..." page 11 "Here equitable tolling is applicable in this
case. The doctrine applies here".
"situations in which, without fault by the Plaintiff, plaintiff
was able to sue within the statutory Period (June 6, 2017)
Plaintiff mail is complaint by the fastest mines, that is over­
night mail".

Secondly if the district court apply Houston or the
Equitable tolling to Plaintiff-Petitioner's Complaint, PlaintiffPetitioner's Complaint will not be time-barred or futile.
Separately, this case also is an excellent vehicle for the question
presented because Petitioner's proposed amendment in the
Second Amended Complaint that was denied by district court
was not futile. Thus, application of the Fourth Circuit's rule to
Petitioner's case should have resulted in reversal of the district
court's decision because the record did not support a finding
that the second amended complaint that was denied was futile.

THE QUESTION PRESENTED IS RECURRING AND IMPORTANT.
Whether a District Court Must Provide a Pro Se Litigant
Sufficient Notice of Pleading Deficiencies Is an Important
National Question.
The question presented implicates fundamental principles of
due process worthy of this Court's attention. The majority of
pro se plaintiff in here including plaintiff's bring claims seeking
protection of basic rights, including constitutional and civil
rights claims. Bloom & Hershkoff, supra, at 479-81; David
Rauma & Charles P. Sutelan, Analysis of Pro Se Case Filings in
Ten U.S. District Courts Yields New Information, 9 FJC Directions
5, 5 (1996). The pool of pro se litigants disproportionately
comprises women, minorities, in here which plaintiff is, and
poor-groups [also in here is plaintiff's] historically subject to
unfavorable treatment and to whom the courts have provided

legal protections and avenues of redress. See Doyle et al.,
supra, at 297-98. Nearly one-third of all complaints filed in
federal court are filed by pro se litigants. See, e.g., U.S. Courts,
U.S District Courts- Civil Pro Se and Non-Pro Se Filings by
District, During the 12 Month Period Ending September 30,
2017, at 1[5]
The predominant reason these litigants proceed pro se is their
inability to afford counsel. See, e.g., Hon. Jed S. Rakoff,
Learned Hand Medal Speech (May 2,2018)
The increasing cost of counsel is problematic because as the
federal judiciary knows firsthand, successfully proving a case in
federal court without representation is extraordinarily difficult.
See id. (noting most working-class Americans would not qualify
as indigent, but cannot afford lawyers); see also Hon. Patricia
M. Wald, Becoming A Player: A Credo for young Lawyers in the
1990s, 51 Md L Rev. 422,428 (1992) (" In a recent ABA study,
forty percent of low-income households surveyed had civil legal
problems in the last twelve months but could not obtain
counsel."). Moreover, for many of these litigants which
Petitioner's here falls, the potential monetary damages are too
uncertain or small for attorneys to take their cases on a
contingency basis. See Doyle et al., supra, at 300.
As district court judges themselves have recognized, "federal
programs to provide civil counsel are under-funded and
severely restricted," resulting in "a crisis in unmet legal needs
which disproportionately harms racial minorities, in here which

i i(p

Petitioner's falls, women, and those living in poverty". Colum. L.
SCH. Hum. Rts. Clinic, Access to Justice: Ensuring Meaningful
Access to Counsel in Civil Cases-Response to the Fourth Periodic
Report of the United States to the United Nations Human
Rights Committee 301 (Aug. 2013). Pro se litigants face steep
obstacles and unique challenges when pleading their cases in
federal court. In here the true classic example is see here in Pro
se Petitioner's complaint, out of State pro se Petitioner's mail
is complaint with the fastest means over-night mail, the day
the state statute of limitation [ June 6, 2017] the district court
claims it was time-barred and Fourth Circuit Affirm it.
These convergent factors create a situation where many
individuals from protected classes and vulnerable population
are forced to seek civil rights protection from the courts for
serious legal injuries, without attorney assistance. They are left
to interpret the law and write their pleading documents -[as in
here]and in some circuits, left to decipher why their pleadings
fall short, all without counsel. The question presented invokes
these very concerns of due process and access to justice
because the rule adopted by the majority of the circuits
provides significant assistance to pro se litigants, with minimal
additional effort by the courts,
Requiring a district court to provide the justifying reason for
denying a pro se plaintiff leave to amend would ensure that the
pro se plaintiff can understand the basis of that denial and offer
further amendments if the claims are, in fact, meritorious. As in

77
i

here with pro se Petitioner. Without notice of the pleading
deficiencies, however, vulnerable individuals with meritorious
claims may be blocked from accessing the courts because they
are unable to comply with the technical requirements of the
Federal Rules of Civil Procedure., as in here. Especially because
the majority of pro se litigants bring claims sounding in
constitutional and civil rights injuries as in here, seeking basic
protections from the federal court system, in here pro se
litigant which is life banned by Defendants, which is still
ongoing but the district court and the Fourth Circuit have
closed or blocked Petitioner's here, accessing the courts with is
meritorious claims based on technical requirements, refuse
amendment to Petitioner's Complaint, No Evidence granting
Dismissal; and No discovery et al., the question presented is an
important one that this Court should decide.

CONCLUSION
The question presented in this case is whether recent decisions
from this Court have an effect on the requirement that the
district court must follow Rule 12(d) when considering a
motion for failure to state a claim under Rule 12(b)(6).
Intertwined within that question is the question whether the
failure to follow Rule 12(d) violates a plaintiff procedural due
process rights. Consideration of these important questions
warrants grant of this petition and consideration of Emiabata's
claims on their merits.

i

Dated : November 11, 2019.

HUl
i

Philip Emiabata, In pro se
508 Evening Grosbeak Dr. Pflugerville Texas 78660
Ph: (512) 791-2395,
Email Address: philipemiabata@vahoo.com

2^Cj

